IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 76214

GLENN GALVAN,
Appellant,
vs.
NATIONSTAR MORTGAGE, LLC,
Respondent.

SEP IJ 2020
DEPUTYcTef^

ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.1
It is so ORDERED.

Pickering

, J.
Hardesty

, j.
Stiglieh

j.

Cadish

J.
Silver

cc:

Supreme Court

Hon. Lynne K. Simons, District Judge
Hon. Scott N. Freeman, District Judge
Glenn Galvan
Akerman LLP/Las Vegas
Washoe District Court Clerk

JThe Honorable Mark Gibbons, Justice, did not participate in the
decision of this matter.

of

Nevada
» I947A otfSffinp

ZO'iSSS'T-

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

GLENN GALVAN,
Appellant,
vs.
NATIONSTAR MORTGAGE, LLC,
Respondent.

No. 76214-COA

JUL X* 202!
eli;^
A. BROWN
cler/of Supreme coy

BY.

ORDER OF AFFIRMANCE

DEPUTY CLERK

Glenn Galvan appeals from various orders in consolidated
district court cases. Second Judicial District Court, Washoe County; Lynne
K. Simons, Judge.1
In 2012, respondent Nationstar Mortgage, LLC (Nationstar),
brought a judicial foreclosure action against Galvan, and Galvan
countersued asserting contract and tort claims (the 2012 action).

Then, in

2015, Galvan commenced a separate proceeding in which he asserted
contract, tort, and quiet title claims against, as relevant here, Nationstar
(the 2015 action). The 2012 and 2015 actions were later consolidated.
Nationstar moved to dismiss Galvan’s claims in the 2015 action,
arguing that Galvan was required to assert them as compulsory
counterclaims in the 2012 action. Galvan opposed that motion, asserting
that the 2012 and 2015 actions were merged into a single action when they
1 Judge Lynn K. Simons entered each of the orders challenged in this
appeal with the exception of the order denying Galvan’s motion to disqualify
her as the presiding judge in the underlying proceeding, which was entered
by Chief Judge Scott N. Freeman. Although Galvan’s notice of appeal
designates the order denying his motion to disqualify Judge Simons as
being challenged on appeal, he does not present any specific argument with
respect to that decision, and we therefore affirm it.
>urt of Appeals
of

Nevada
■ UM7U

were consolidated, and he further sought to amend his complaint in the
2015 action to include all of his claims and counterclaims from the two
cases. The district court concluded that the 2012 and 2015 actions retained
their separate identities despite being consolidated, that Galvan’s claims in
the 2015 action arose from the same transaction and occurrence involved in
the 2012 action, and that Galvan was therefore required to assert them as
compulsory counterclaims in the 2012 action.

Thus, the district court

granted Nationstar’s motion to dismiss the 2015 action and denied Galvan’s
request to amend his complaint in that action. The district court also denied
Galvan’s request to reconsider its dismissal order, reasoning that he did not
raise any new issues of law or fact relevant to the court’s decision.
Meanwhile, in the 2012 action, a dispute arose between the
parties concerning whether Nationstar was required to produce the original
promissory note and deed of trust for the property. While the discovery
commissioner recommended that Nationstar be required to produce those
documents, the district court agreed with Nationstar’s objection to that
recommendation and thereby denied Galvan’s underlying motion to compel,
reasoning that Galvan’s claims did not relate to the authenticity of those
documents, but instead, concerned their chain of title.

And although

Galvan also sought to obtain the original note and deed of trust by way of a
motion for a mandatory injunction, the district court construed the filing as
a motion for reconsideration of its prior discovery decision, which the court
denied because Galvan failed to present any new issues of law or fact.
At approximately the same time, the parties filed competing
motions for summary judgment, and Galvan moved to amend his pleading
in the 2012 action to add additional parties and his claims from the 2015
action, among others. The district court granted summary judgment in
Nationstar’s favor, finding that it held the note and deed of trust and was
►urt op Appeals
of

Nevada
s IQ47R erfSSS&O

2

entitled to enforce those instruments and that Galvan failed to oppose
Nationstar’s various arguments against his affirmative defenses and
counterclaims. And in light of that decision, the district court concluded
that Galvan’s motion to amend was moot and denied it.
Galvan sought relief from the summary judgment under NRCP
52, 59, and 60, which the district court denied, concluding that NRCP 52
and 59 were inapplicable absent a trial and that Galvan did not otherwise
show that relief was warranted under NRCP 60. Meanwhile, Nationstar
moved for Galvan to be declared a vexatious litigant, and the district court
granted that motion, directing that Galvan submit certain matters to the
court for pre-filing approval going forward.
Lastly, the district court entered a final judgment in the 2012
action, which set forth the amount due to Nationstar and authorized
Nationstar to proceed with its foreclosure sale. This appeal followed.
On appeal, Galvan challenges orders from both the 2012 and
2015 actions.

We begin by addressing Galvan’s challenges to the orders

from the 2012 action, as our resolution of those challenges informs our
analysis of Galvan’s challenges to the orders from the 2015 action.
Orders sustaining Nationstar’s objection to the discovery commissioner’s
recommendation and denying Galvan’s motion for a mandatory injunction
With respect to the 2012 action, Galvan initially argues that the
district court should have overruled Nationstar’s objection to the discovery
commissioner’s recommendation that Nationstar be required to produce the
original note and deed of trust, citing NRS 104.3301 and Leyva v. National
Default Servicing Corp., 127 Nev. 470, 255 P.3d 1275 (2011). But neither
those authorities, nor Nevada’s judicial foreclosure statutes, NRS 40.430 et
seq., impose any obligation on a foreclosing party to produce original loan
documents in the context of a judicial foreclosure action. Moreover, Galvan
was only entitled to obtain discovery “relevant to the subject matter” of the
kjrt of

Appeals

OF

Nevada

3

underlying proceeding. NRCP 26(b)(1);2 In re Raggio Family Tr., 136 Nev.,
Adv. Op. 21, 460 P.3d 969, 973 (2020). And the district court determined
that the original note and deed of trust were not relevant since Galvan did
not challenge the authenticity of the copies of the documents that
Nationstar produced. Because Galvan does not address that determination
on appeal, he has waived any challenge thereto. See Powell v. Liberty Mut.
Fire Ins. Co., 127 Nev. 156, 161 n.3, 252 P.3d 668, 672 n.3 (2011) (providing
that arguments not raised on appeal are deemed waived). As a result,
Galvan fails to demonstrate that the district court abused its discretion by
rejecting the discovery commissioner’s recommendation and thereby
denying his motion to compel production of the original note and deed of
trust. Raggio Family Tr., 460 P.3d at 973 (providing that the district court’s
discovery orders will not be disturbed absent a clear abuse of discretion).
While Galvan also challenges the denial of his motion for a
mandatory injunction, which the district court construed as a motion for
reconsideration of its prior discovery decision, he relies on his argument
concerning NRS 104.3301 and Leyva rather than disputing the district
court’s finding that he did not raise any new issues of law or fact in support
of his motion. See Moore v. City of Las Vegas, 92 Nev. 402, 405, 551 P.2d
244, 246 (1976) (explaining that reconsideration is only warranted “in very
rare instances in which new issues of fact or law are raised supporting a
ruling contrary to the ruling already reached”); see also Powell, 127 Nev. at
161 n.3, 252 P.3d at 672 n.3. As a result, Galvan fails to demonstrate that
2The NRCP were amended effective March 1, 2019. In re Creating a
Comm, to Update & Revise the Nev. Rules of Civil Procedure, ADKT 0522
(Order Amending the Rules of Civil Procedure, the Rules of Appellate
Procedure, and the Nevada Electronic Filing and Conversion Rules, Dec. 31,
2018). Because all of the challenged orders in this case were entered before
March 1, 2019, we cite the prior version of the NRCP herein.
>urt of Appeals
of

Nevada
i\ lOdTll

4

the district court abused its discretion by refusing to reconsider its prior
discovery decision. See AA Primo Builders, LLC v. Washington, 126 Nev.
578, 589, 245 P.3d 1190, 1197 (2010) (reviewing a district court’s decision
on a motion for reconsideration for an abuse of discretion).
Orders denying Galvan’s motion for summary judgment, granting
NationsLar’s motion for summary judgment, and denying Galvan’s motion
to amend his pleading in the 2012 action
As to the summary judgment in favor of Nationstar, Galvan
argues that the district court’s decision was improper because Nationstar
did not prove that it possessed the original note and deed of trust and
because one of the assignments that Nationstar produced to establish the
chain of title for the deed of trust was invalid.3 This court reviews a district
court’s order granting summary judgment de novo. Wood v. Safeway, Inc.,
121 Nev. 724, 729, 121 P.3d 1026, 1029 (2005).

Summary judgment is

proper if the pleadings and all other evidence on file demonstrate that no
genuine issue of material fact exists and that the moving party is entitled
to judgment as a matter of law. Id. When deciding a summary judgment
motion, all evidence must be viewed in a light most favorable to the
nonmoving party. Id. General allegations and conclusory statements do
not create genuine issues of fact. Id. at 731, 121 P.3d at 1030-31.

3Although Galvan also contends that the entry of summary judgment
for Nationstar improperly set aside certain consent orders involving
Nationstar’s predecessors in interest, among others entities, we decline to
consider that contention, as it is not supported by any explanation with
respect to how the district court’s decision in this judicial foreclosure action
affected those consent orders, which concerned the internal management of
the entities involved. See Edwards v. Emperor’s Garden Rest., 122 Nev.
317, 330 n.38, 130 P.3d 1280, 1288 n.38 (2006) (explaining that this court
need not consider issues that are not supported by cogent argument).
3URT of Appeals
OF

Nevada

5

To begin, Galvan’s assertion that Nationstar failed to prove that
it possessed the original note and deed of trust fails, as Nationstar
supported its motion for summary judgment with a declaration that it
possessed those instruments, and Galvan did not produce any evidence to
the contrary to raise a genuine issue of material fact.

See NRS 53.045

(providing that matters may be established by way of unsworn declarations
signed by the declarant under penalty of perjury); see also Cuzze v. Univ. &
Cnity. Coll. Sys. of New., 123 Nev. 598, 602-03, 172 P.3d 131, 134 (2007)
(discussing the parties’ burdens of proof in the summary judgment context).
As to the purportedly invalid assignment, Galvan’s argument that the
district court erred in concluding that he lacked standing to challenge the
assignment likewise fails. See Wood, 121 Nev. at 729, 121 P.3d at 1029; see
also Arguello v. Sunset Station, Inc., 127 Nev. 365, 368, 252 P.3d 206, 208
(2011) (providing that standing is a question of law subject to de novo
review).
Indeed, even if Galvan is correct that the assignment from the
original beneficiary, Mortgage Electronic Registration System,

Inc.

(MERS), to Nationstar’s predecessor in interest was executed with an
outdated corporate seal and without MERS’ authorization, those defects
would merely render the assignment voidable because it was subject to
ratification by MERS. See Restatement (Second) of Contracts § 7 (Am. Law
Inst. 1981) (explaining that a voidable contract is one in which a party has
the power to avoid or ratify the legal obligations imposed by it); Restatement
(Third) of Agency § 4.03 (Am. Law Inst. 2006) (recognizing that a principal
may ratify the acts of a person purporting to be its agent); see also Antony
v. United Midwest Sau. Bank, No. H-15-1062, 2016 WL 914975, at *3 (S.D.
Tex. Mar. 10. 2016) (concluding that a contract executed on behalf of MERS
by a person who lacked authority to do so would merely be voidable). And
jurt of

Appeals

of

Nevada

6

because the assignment is merely voidable, Galvan lacks standing to
challenge it. see Wood u. Germann, 130 Nev. 553, 556-57, 331 P.3d 859, 861
(2014) (providing that homeowners lack standing to challenge voidable deed
of trust assignments), which despite his contentions to the contrary, is not
a due process violation. See Malfitano u. Cty. of Storey, 133 Nev. 276, 282,
396 P.3d 815, 819 (2017) (explaining that a plaintiff asserting a procedural
due process claim must demonstrate that he or she suffered a deprivation
of a protected liberty or property interest); Yvanova v. New Century Mortg.
Corp., 365 P.3d 845, 856 (Cal. 2016) (reasoning that, when a homeowner
challenges a voidable assignment, the homeowner asserts rights belonging
to the parties to the assignment rather than the homeowner).
Notwithstanding the foregoing, Galvan further contends that
the district court erred in granting summary judgment for Nationstar
because it based its decision on the answer and counterclaim that he filed
in 2012 even though he sought to amend that pleading by adding certain
parties and the claims from his 2015 action, among others,

But the

proposed amended pleading was primarily based on his allegation that the
MERS assignment was invalid, which fails for the reasons discussed above.
And while Galvan presented several other allegations in his proposed
amended pleading, they likewise do not support viable claims for relief.4

4Given that the claims in Galvan’s proposed amended complaint are
not viable, his complaint in the 2015 action likewise fails since it consisted
entirely of claims that he attempted to add to the 2012 action by way of the
proposed amended complaint. Insofar as Galvan contends that he is
nevertheless entitled to relief from the dismissal order regarding the 2015
action since Nationstar never filed an answer, his argument is unavailing
because Nationstar timely moved to dismiss the case rather than filing an
answer, as it was permitted to do. See NRCP 12(a)(4)(A), (b) (providing that
a motion for NRCP 12(b)(5) relief must be filed before an answer and that
an answer need not be served until 10 days after notice of the court’s denial
ourt of

Appeals

OF

Nevaoa

7

b

Thus, because Galvan’s proposed amendment was futile, the district court
did not abuse its discretion in denying his motion to amend, and Galvan
therefore fails to demonstrate that the district court erred in granting
summary judgment in Nationstar’s favor. See Gardner v. Eighth Judicial
Dist. Court, 133 Nev. 730, 732-33, 405 P.3d 651, 654 (2017) (explaining that
district court orders denying motions to amend are reviewed for an abuse of
discretion and that granting such motions is inappropriate if amendment
would be futile); Wood, 121 Nev. at 729, 121 P.3d at 1029.
Order denying Galvan’s motion for relief under NRCP 52, 59, and 60
Turning to Galvan’s motion for relief under NRCP 52, 59, and
60, he does not challenge the district court’s determination that NRCP 52
and 59 are inapplicable under the circumstances of this case, and therefore,
we limit our analysis to whether Galvan was entitled to relief under NRCP
60. See Powell, 127 Nev. at 161 n.3, 252 P.3d at 672 n.3. In this respect,

t

Galvan argues that relief is warranted because he supported his motion
with evidence, which was purportedly newly discovered, showing that an
unrecorded assignment of the deed of trust is missing from the record. But
although the documents identified by Galvan reflect a transfer of the
servicing rights for his home loan, Galvan’s assumption that the transfer of
servicing rights is necessarily indicative of an assignment of the deed of
trust is spurious, as servicers are distinct from beneficiaries. See Cervantes

of the motion). To the extent that Galvan maintains that he should have
been permitted to amend his complaint in the 2015 action by adding his
counterclaims from the 2012 action, his argument fails since he has not
shown, in the context of the summary judgment order discussed above, that
the counterclaims are viable. Thus, because Galvan is not entitled to relief
with respect to any of the challenged decisions in the 2015 action, we need
not address the parties’ remaining arguments concerning that district court
case.
ourt of

Appeals

of

Nevada

8

v. Countrywide Home Loans, Inc., 656 F.3d 1034, 1038-39 (9th Cir. 2011)
(discussing the MERS system and explaining that the beneficiary is entitled
to repayment of the loan, whereas a servicer “collects payments from the
borrower, sends payments to the lender, and handles administrative
aspects of the loan”).

Consequently, we conclude that Galvan has not

demonstrated that the district court abused its discretion in denying his
motion for relief under NRCP 60. See Rodriguez v. Fiesta Palms, LLC, 134
Nev. 654, 656, 428 P.3d 255, 257 (2018) (reviewing a district court order
denying NRCP 60(b) relief for an abuse of discretion).
Order declaring Galvan a vexatious litigant
As to the order declaring Galvan a vexatious litigant, he
initially argues that relief is warranted because the district court never
warned him that he was being vexatious. But although the district court
did not specifically warn Galvan that he was being vexatious, he had the
opportunity to brief the vexatious litigant issue and to argue his position at
a hearing before the district court, which was sufficient to satisfy the
requirement that he receive notice and an opportunity to be heard before
being declared a vexatious litigant. See Jordan v. State, 121 Nev. 44, 6062, 110 P.3d 30, 42-44 (2005) (setting forth the requirements that must be
satisfied before entry of a vexatious litigant order), overruled on other
grounds by Buzz Stew, LLC v. City of N. Las Vegas, 124 Nev. 224, 228 n.6,
181 P.3d 670, 672 n.6 (2008). While Galvan contends that the district
court’s findings concerning the history of the underlying proceeding and
related cases was either inaccurate or incomplete, we conclude that the
court’s detailed recitation of the history of the underlying proceeding
created an adequate record of the court’s reasons for concluding that a

Court of Appeals
of

Nevada

9

restrictive order was warranted.5 Id. at 60-61, 110 P.3d at 43. We likewise
conclude that the district court made sufficient findings with respect to the
harassing nature of Galvan’s conduct in this case and the undue delay it
created, see id. at 61, 110 P,3d at 43, despite Galvan’s contention that his
filings were necessitated by Nationstar’s rule violations and the district
court’s incorrect rulings, which fails for the reasons discussed above. And
although Galvan contends that the restrictions in the vexatious litigant
order violate his constitutional rights because they are too broad, we
conclude that the district court properly imposed a narrow restriction on
Galvan’s ability to file any new actions or motions concerning the subject
property, the related loan documents, or the various entities that have been
involved with those documents, and thereby avoided any constitutional
concerns

Id. at 61-62, 110 P.3d at 43-44. Thus, given the foregoing, we

conclude that Galvan fails to demonstrate that the district court abused its
discretion by declaring him a vexatious litigant.6 See id. at 62, 110 P.3d at
44 (reviewing vexatious litigant orders for an abuse of discretion).

r,We recognize that the district court incorrectly found that Galvan
filed an untimely motion to amend his pleading in the 2012 action when the
court, never established a deadline for the parties to seek leave to amend
their pleadings, but conclude that this mistake was harmless, as the court’s
remaining findings support its decision to declare Galvan a vexatious
litigant. See NRCP 61 (requiring the court, at every stage of a proceeding,
to disregard errors that do not affect a party’s substantial rights).
6Galvan also moved to strike Nationstar’s vexatious litigant motion
and to admonish its counsel, but the district court denied the motion,
reasoning that it merely reiterated Galvan’s arguments in opposition to
being declared a vexatious litigant and that those arguments should be
addressed during the vexatious litigant hearing. Galvan disputes the
propriety of this decision on appeal, but he fails to address the underlying
ourt of

Appeals

of

Nevada

10

Final Judgment
Lastly, although Galvan challenges the final judgment in the
2012 action, he does not set forth any challenges specific to the decision, but
instead relies on his various arguments concerning the interlocutory orders
discussed above. And because those arguments fail for the reasons set forth
above, Galvan has not demonstrated that relief is warranted in this regard.
Thus, given the foregoing, we affirm the final judgment in the
2012 action along with each of the challenged interlocutory orders in that
case as well as the order dismissing the 2015 action and each of the
challenged post-judgment orders in that case.
It is so ORDERED.7

C.J.
Gibbons

J.

, J.
Bulla

Tao

cc:

Hon. Lynne K. Simons, District Judge
Glenn Galvan
Akerman LLP/Las Vegas
Washoe Distinct Court Clerk

reasoning for the decision and has thereby waived his challenge.
Powell 127 Nev. at 161 n.3, 252 P.3d at 672 n.3

See

insofar as the parties raise arguments that are not specifically
addressed in this order, we have considered the same and conclude that
they either do not present a basis for relief or need not be reached given the
disposition of this appeal.
durt of

Appeals

OF

Nevada
» I947B

11

